<html>
<title> - REFORMING GOVERNMENT: THE FEDERAL SUNSET ACT OF 2001</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
          REFORMING GOVERNMENT: THE FEDERAL SUNSET ACT OF 2001

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CIVIL SERVICE,
                     CENSUS AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2002

                               __________

                           Serial No. 107-188

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

86-196              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on the Civil Service, Census and Agency Organization

                     DAVE WELDON, Florida, Chairman
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
CONSTANCE A. MORELLA, Maryland       MAJOR R. OWENS, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
C.L. ``BUTCH'' OTTER, Idaho          ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Garry Ewing, Staff Director
             Melissa Krzeswicki, Professional Staff Member
                          Scott Sadler, Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2002...................................     1
Statement of:
    Brady, Hon. Kevin, a Representative in Congress from the 
      State of Texas; and Hon. Jim Turner, a Representative in 
      Congress from the State of Texas...........................     7
    Everson, Mark W., Controller, Office of Federal Financial 
      Management, Office of Management and Budget................    23
    Schatz, Thomas A., president, Citizens Against Government 
      Waste; John Berthoud, president of the National Taxpayers 
      Union; and Chris Edwards, director of fiscal policy, CATO 
      Institute..................................................    35
Letters, statements, etc., submitted for the record by:
    Berthoud, John, president of the National Taxpayers Union, 
      prepared statement of......................................    51
    Brady, Hon. Kevin, a Representative in Congress from the 
      State of Texas, prepared statement of......................     9
    Edwards, Chris, director of fiscal policy, CATO Institute, 
      prepared statement of......................................    59
    Everson, Mark W., Controller, Office of Federal Financial 
      Management, Office of Management and Budget, prepared 
      statement of...............................................    26
    Schatz, Thomas A., president, Citizens Against Government 
      Waste, prepared statement of...............................    38
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................    15
    Weldon, Hon. Dave, a Representative in Congress from the 
      State of Florida, prepared statement of....................     3


          REFORMING GOVERNMENT: THE FEDERAL SUNSET ACT OF 2001

                              ----------                              


                        TUESDAY, APRIL 23, 2002

                  House of Representatives,
  Subcommittee on Civil Service, Census and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m. in room 
2247, Rayburn House Office Building, Hon. Dave Weldon (chairman 
of the subcommittee) presiding.
    Present: Representatives Weldon, Davis of Illinois, 
Morella, and Norton.
    Staff present: Garry Ewing, staff director; Chip Walker, 
deputy staff director; Melissa Krzeswicki, professional staff 
member; Jim Lester, counsel; Scott Sadler, clerk; and Tania 
Shand, minority professional staff member.
    Mr. Weldon. Good afternoon. It is a pleasure to have our 
two first witnesses in the first panel. Kevin Brady is the 
author of this bipartisan bill. As a member of the Texas State 
Legislature, he has had experience with the sunset process in 
Texas and we're very pleased to be able to have him. 
Additionally, we are quite pleased for him to be joined by 
Congressman Jim Turner. He is the ranking member of the 
Government Reform Subcommittee on Government Management. He has 
worked very closely with Mr. Brady in developing this important 
legislation and is one of the key co-sponsors. He, too, has had 
experience with the Texas process as a member of the Texas 
State Legislature. I want to commend both gentlemen for their 
hard work on this bill.
    I call this hearing to examine H.R. 2373, the Federal 
Sunset Act of 2001. The Sunset Act would establish a bipartisan 
Commission to conduct systematic and periodic reviews of all 
Federal agencies and programs. Once the Sunset Commission has 
reviewed an agency and issued its report to Congress, the 
agency would be eliminated unless Congress affirmatively 
reauthorizes it within a year or two.
    This bill recognizes that bad programs, not bad employees, 
cause Government to be inefficient or ineffective, so it 
requires reasonable efforts to retain employees who might be 
effective if an agency is eliminated or programs reorganized.
    The Sunset Act offers a promising approach to a problem 
that has been vexing the Federal Government. As long ago as 
1947, a distinguished statesman, former Secretary of State and 
former Democratic Senator from South Carolina, James F. Byrnes, 
said, ``The nearest approach to immortality on earth is a 
Government bureau.''
    Traditional congressional oversight has not proved 
effective in dealing with the problems of agencies that have 
outlived their usefulness or unnecessary duplication of 
programs. For example, 70 different Federal programs and 57 
different departments and offices fight our war on drugs at a 
cost of $16 billion a year, and 788 Federal education programs 
in 40 agencies cost $100 billion annually. In fact, the Federal 
Government often appears to be on autopilot. The Congressional 
Budget Office recently reported that in fiscal year 2002 
Congress spent some $91 billion on 131 programs with expired 
authorizations.
    The Sunset Act will take the Government off autopilot. The 
Sunset Act will bring universal accountability to the 
Government. The Sunset Commission will shine a spotlight on 
obsolete agencies and duplicative programs. Both Congress and 
the executive branch will be forced to confront these problems 
publicly and make decisions in that spotlight.
    All of us in the Federal Government recognize that, 
especially in this time of uncertainty and war, we have a moral 
obligation to end the funding of poorly performing agencies and 
programs. A dollar spent on a program that does not help people 
is a dollar we cannot spend on programs that do help people. 
Every dollar spent on an agency that has outlived its 
usefulness is a dollar we cannot use to fight the war on 
terrorism or strengthen homeland security.
    We can all agree with OMB director Mitch Daniels that it 
would be unconscionable to fund a poorly performing program at 
a time when the physical safety of Americans requires that the 
Federal Government take on many additional expensive tasks.
    Working in the Federal Government means working on behalf 
of all Americans. It is a privilege for us to do so. With that 
privilege comes the responsibility to use hard-earned taxpayer 
dollars wisely and effectively.
    We may want to revise the bill before us to address various 
concerns, including Constitutional questions, but these are not 
insurmountable obstacles, and the Sunset Act appears to give us 
an important tool to carry out fundamental responsibility to 
the American people.
    I look forward to benefiting from the views and insights of 
our distinguished witnesses.
    I would now like to turn to my ranking member, Mr. Davis, 
for his opening statement.
    [The prepared statement of Hon. Dave Weldon follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.001
    
    [GRAPHIC] [TIFF OMITTED] T6196.002
    
    [GRAPHIC] [TIFF OMITTED] T6196.003
    
    Mr. Davis. Thank you very much, Mr. Chairman. You know, 
I've always been told that Texans oftentimes come in pairs, and 
so I want to welcome Representative Brady and Representative 
Turner and look forward to their testimony.
    I also want to thank you, Mr. Chairman, for calling this 
hearing. I've looked forward to the opportunity to interact and 
work with you as you've been appointed the new chairman, and we 
just look forward to some interesting and exciting times.
    Mr. Chairman, though often difficult to achieve, the 
efficient and cost-effective operation of government programs 
and agencies is a reasonable and necessary goal. H.R. 2373, the 
Abolishment of Obsolete Agencies and Federal Sunset Act of 
2001, seeks to achieve this by establishing a 12-member 
Commission composed largely of Members of Congress to review 
periodically and systematically the activities and operations 
of all Federal Executive departments and agencies, including 
advisory committees, with a view to their efficiency and public 
need. The Commission would be authorized to recommend the 
abolition of Executive departments, agencies, and advisory 
committees in whole or in part by means of draft legislation. 
The agency would be abolished no later than 1 year after the 
date of the Commission's review unless Congress reauthorizes 
the agency.
    Though I agree with the elimination of duplicative and 
ineffective programs, there seem to be divergent opinions 
regarding the Constitutionality of this proposal. A legal 
opinion issued by the Department of Justice on September 21, 
1998, concluded that the creation of a Federal Sunset 
Commission, as prescribed in H.R. 2373, was unconstitutional. 
Specifically, the Department determined that this legislation 
would violate the Separation of Powers Doctrine by allowing the 
abolishment of a statutorily created Executive agency not 
through legislation passed in conformity with Article I, but at 
the discretion of a 12-member Commission.
    The House Committee on Government Reform and the Senate 
Committee on Governmental Affairs currently have investigative 
and oversight authority to review allegations of waste, fraud, 
and abuse, and mismanagement across the Federal Government. 
Under this legislation, would these committees be abdicating 
their role to a Sunset Commission?
    These are two critical issues that must be addressed by the 
witnesses at today's hearing. I look forward to the testimony 
of not only our distinguished colleagues, but the other 
witnesses who have come.
    Again, Mr. Chairman, I thank you for the hearing. I look 
forward to an interesting afternoon.
    Mr. Weldon. Thank you, Mr. Davis.
    I think you've put your finger right on the issue that we 
want to try to get into here today, and I'm looking forward to 
hearing from both our witnesses.
    We would now ask Mr. Brady to make his opening statement 
and ask that you try your best to confine your comments to 5 
minutes, and then we'll hear from Mr. Turner.
    You may proceed.

 STATEMENTS OF HON. KEVIN BRADY, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF TEXAS; AND HON. JIM TURNER, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Brady. Thank you, Mr. Chairman.
    Chairman Weldon, Ranking Member Davis, I'd like to thank 
you and member of the subcommittee staff for holding the 
hearing on H.R. 2373, the Federal Sunset Act of 2001. 
Congressman Turner and I offered this legislation together, 
based on our experience in the Texas Legislature. Texas is one 
of more than 23 other States that have employed the sunset 
process as a proven tool to cut wasteful spending, to eliminate 
duplication, to streamline agencies, and, most importantly, 
just increase accountability. This bill, the Federal Sunset 
Act, seeks to bring those same sorts of principles of 
efficiency and continual regular evaluation to our Federal 
Government.
    The battle to eliminate obsolete agencies and make better 
us of our tax dollars has been fought throughout our Nation's 
history. Going back through our third President's letters, 
Thomas Jefferson, you will find a letter he wrote to friends 
expressing his frustration. He wasn't able to abolish agencies 
that had already outlived their usefulness, even at that early 
point in our history. Most recently, former President Jimmy 
Carter pushed for a vote on the sunset in the late 1970's.
    Big Government seems to have a life of its own. Just ask 
those in Congress who, a few years ago, struggled to abolish 
the 100-year-old Federal Board of Tea Examiners. The timing for 
this measure couldn't be better. A Federal sunset law ensures 
that programs are held accountable. The successful ones 
continue, and, indeed, our experience is they thrive under 
sunset, while the ones that fail are eliminated. This would 
allow us to invest more in the programs that work, provide more 
resources to the people who truly need that help.
    Additionally, enacting the bill would help us ensure we 
have enough resources to fight our war on terrorism, to ensure 
our children get a good education, continue our path of 
doubling medical research funds, and preserve and enhance 
Social Security and Medicare once and for all.
    In order to reach an honest balanced budget, simply slowing 
the growth of Federal agencies isn't enough, as we all know. 
Enacting the Federal sunset law creates a tool to cut wasteful 
spending, and it is a simple concept. Each and every Federal 
Government agency must justify its existence, not its value 
when it was created 100 years ago, or 40, or even 20 years ago. 
They must prove that they deserve our precious limited tax 
dollars today.
    Here's how it works. Every Federal agency is given an 
expiration date--a date certain when they will go out of 
existence unless Congress reestablishes them. In this bill we 
suggest a 12-year cycle for most agencies, a shorter period for 
troubled ones. A bipartisan, 12-member Sunset Commission, 
composed of Members of Congress and the public, examines each 
agencies need, its value, its cost-effectiveness, and level of 
customer service. Importantly, then citizens, taxpayers, and 
State and local government leaders are given a chance to speak 
their mind. Is the agency still needed? Is it responsive to its 
customers? Is it spending our tax dollars wisely?
    Then, after a thorough evaluation, the Commission 
recommends to Congress that an agency be reauthorized, 
streamlined, consolidated, or eliminated. If the agency is 
reestablished, it is assigned a future sunset to make sure it 
remains accountable.
    Accountability saves money. In Texas, where we've both 
served as State legislators, sunsetting has eliminated 44 State 
agencies and saved the taxpayers $720 million. Based on these 
estimates, for every dollar spent on the sunset process, the 
State has received about $42 in return. With results like this 
at the State level, where government is smaller and I think 
usually more efficient, imagine the cost savings when applied 
to the Washington government, itself.
    There is very little cost associated with this bill. The 
sunset process uses existing mechanisms. Members of the 
Commission are appointed by the Speaker and the Senate majority 
leader. Hearings will be held in conjunction with existing 
authorizing committees. Most work will be conducted within the 
legislative framework we've already established. Any cost the 
Commission incurs will be offset in the budget for each fiscal 
year.
    For legislators like us, Chairman Weldon and Ranking Member 
Davis, there are additional benefits. Agencies become very 
responsive to the American taxpayers and to you and I during 
the years preceding their sunset date. They're more oriented to 
customer service, they write regulations much closer to the 
original intent of legislation that we have passed. They have 
to, because under sunset there are no more sacred cows, no 
existence until infinity. Every agency is treated the same. 
None is singled out. All are held equally accountable.
    Many of us ask: don't we already have sunsetting or a 
mechanism like it in place? The answer is no. Certainly the 
Government Performance and Results Act passed in 1993 was a 
strong step in the right direction, and the President's 
initiatives on results-oriented, performance-based Government 
is another step in the right direction, but we need to go a 
step further by having an enforcement mechanism for an agency's 
own review and facilitator of tangible results.
    On average, more than five agencies perform the same or 
related function. There are 163 programs with job training or 
employment functions, 64 different welfare programs, more than 
500 urban aid programs. Certainly, many of these are 
meritorious, but, not only could we afford to streamline and 
save tax dollars, but it would make it easier for folks to 
understand and know where to seek this aid.
    Mr. Chairman, I'm pleased, in conclusion, this legislation 
has been endorsed by a number of organizations, some of whom 
will testify today. I'm also pleased that during this campaign 
for President, then Governor Bush expressed his support for 
sunset legislation.
    Again, thank you, Chairman Weldon. Now I would like to at 
this point yield to my cosponsor.
    [The prepared statement of Hon. Kevin Brady follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.004
    
    [GRAPHIC] [TIFF OMITTED] T6196.005
    
    [GRAPHIC] [TIFF OMITTED] T6196.006
    
    [GRAPHIC] [TIFF OMITTED] T6196.007
    
    Mr. Weldon. Mr. Turner, please proceed.
    Mr. Turner. Thank you, Chairman Weldon and Ranking Member 
Davis. I am pleased to join my colleague, Congressman Brady, on 
a piece of legislation that I think really represents what our 
Government Reform Committee is all about, because our charge as 
a committee has always been to try to make our Government work 
more efficiently, more effectively, work in the taxpayers' 
interest, and deliver the services that our people need in the 
most cost-effective manner.
    This legislation, as Kevin has shared with you, is one that 
both of us have had experience with as members of the Texas 
Legislature, and another one of our cosponsors, Congressman 
Lloyd Doggett, was actually the sponsor of the original sunset 
legislation in Texas several years ago.
    Those States that have had this type of sunset law in 
effect and have had personal experience with it I think, by and 
large, would share with us that it has been a very effective 
tool for the taxpayers, and in these very difficult times where 
we are trying to continue to meet the growing demands of the 
public for services--we see our entitlement roles growing 
simply by the growth of population--it seems apparent, I think 
to all of us, that we've got to learn how to deliver these 
services in a more cost-effective manner.
    The sunset process, by which every agency has established 
in law a sunset date, does amazing things to cause agencies to 
operate more efficiently, because when agency heads and agency 
managers understand that their agency is going to go out of 
existence at a date certain, and that their continued existence 
depends upon a positive action by the legislative body, it 
gives the legislative body a very unique power to enable 
change, positive change, to occur within a given agency.
    In the Congress we do have, you know, many committees who 
have overlapping responsibilities with regard to various 
Federal agencies, but we do not do, in my judgment, a very good 
job of congressional oversight.
    I'm very pleased that the Bush administration has expressed 
their support for sunset legislation. When Kevin and I 
introduced this in previous Congresses under the Clinton 
administration we did not have that kind of support. I think I 
understand why that perhaps was the case, because to have a 
Federal sunset law which would require a Sunset Commission to 
review the activities of an agency, which generally would 
precede the sunset date by at least 2 years, over a 2-year 
period perhaps you would be looking at an agency with a 
magnifying glass, and for that agency to have the possibility 
of going out of existence is certainly strengthening the 
congressional oversight power vis-a-vis any administration, the 
executive branch.
    So I was very pleased that the Bush administration has 
looked favorably on this, because you have to be convinced of 
the purifying effect of this process in order to be supportive 
of it from the point of view of the executive branch, because 
it does give the Congress an increased role in determining the 
future course of our Federal agencies.
    The Commission that is envisioned in this legislation is 
bipartisan. I'm sure the administration may have some ideas or 
suggestions about composition, but it does include individuals 
from the private sector, the thought being here that if we can 
involve people from the private sector with expertise in 
management and organization, as well as give the public an 
opportunity to come before this Commission in public hearings 
to express their point of view regarding the operation and 
effectiveness of an agency in serving the public, that we bring 
pressure to bear on the agencies and on the Congress to produce 
positive change.
    So I am very hopeful that this committee and this Congress 
will look favorably upon this proposal. I have no doubt it will 
do the same here as it did in our State of Texas, where we had 
44 agencies abolished to date and have saved over $700 million 
in the process. And beyond the cost savings I think the process 
has made government more responsive to the public and ensured 
that those limited and hard-earned tax dollars reach the people 
who need them, rather than be expended in bureaucracy along the 
way.
    Mr. Chairman, thank you for the opportunity to testify in 
favor of this bill. We hope that you will see fit to favorably 
recommend this bill to the full committee.
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.008
    
    [GRAPHIC] [TIFF OMITTED] T6196.009
    
    [GRAPHIC] [TIFF OMITTED] T6196.010
    
    Mr. Weldon. I thank both of our witnesses. The Chair would 
like to now recognize himself for 5 minutes of questioning.
    Mr. Turner, you segued very nicely into one of the 
questions I had, and I'd really like both of you to respond to 
it. At least my understanding is that Texas has had a better 
experience with this than many of the other States, and all the 
States of the 23 that have it have benefited from it, but I 
understand the Texas experience has been particularly good. I 
was wondering if you could just shed some light on why that 
might be. Why has Texas had such a great track record in 
successful use of the Sunset Commission?
    Mr. Turner. Mr. Chairman, there are probably several 
reasons. Some that, from my experience, come to mind is the 
fact that when the sunset legislation was originally passed 
there was a great deal of commitment to making it work, and 
what we've found there over time is that, as a legislator, to 
be able to be appointed to the Sunset Commission is considered 
to be a plumb assignment, and, as you can imagine, to have the 
power over any given agency to determine their future gives the 
members of that body a great deal of clout. So it has become 
one of those bodies in Texas that members of the legislature 
and members of the public consider to be an important and 
influential assignment.
    Clearly, in most of our legislatures, particularly those 
who have biennial sessions, you have the Sunset Commission 
working when the Legislature is not in session. Of course, that 
would differ here, since we meet pretty much year-round. So it 
certainly helps in States like Texas that the Sunset Commission 
is out there working to improve efficiency and effectiveness of 
government when the Legislature is not around, and they get a 
lot of favorable coverage as a result of that.
    Mr. Weldon. So are you recommending that, perhaps, for this 
to work well, that we only meet every other year here in 
Washington, DC? [Laughter.]
    Mr. Turner. Mr. Chairman, that would probably be fine with 
me, but it seems our tradition----
    Mr. Weldon. As long as they don't cut our pay, right?
    Mr. Turner. And, of course, in those States that do that 
they usually have, of course, the biennial budget process, 
which we don't have.
    The Sunset Commission--I think all State agencies in Texas 
look to that sunset date with a great deal of trepidation, and 
they know that there is a very strong possibility that they may 
be significantly changed, and they get very nervous about it, 
and they get very responsive to legislators, and I think the 
same would be true here in the Congress.
    Mr. Weldon. Mr. Brady, do you have anything you wanted to 
add to Mr. Turner's comments?
    Mr. Brady. I think Jim, Mr. Chairman, hit it right on the 
mark. One of the keys, not just in Texas but other States that 
have really gotten results from this, has been all agencies are 
reviewed. They don't pick some and leave the others out. Every 
one is treated equally.
    Second, there is a regular review. Some States have, sort 
of after their initial review, sort of petered out a bit in 
whether they're going to come back in 4 years or 6 years, so 
there is no pattern of regular review that everyone can count 
on.
    A third part of that success is that in those States it 
really works and people see it as real reform, an opportunity 
to look at the mission of an agency, they really focus on what 
they are doing. Oftentimes, again, the good agencies thrive 
under sunset. The ones that are responsive, don't duplicate, 
that have a high priority, they really shine under this 
process.
    And the fourth part that we've tried to incorporate in the 
final part in our bill, Mr. Chairman, is that in Texas the 
Commission works very closely with the committees, the 
authorizing committees and the appropriators, so that if 
authorizing has an area they want to look at, they recommend 
sunset. If appropriators have an area that concerns them, they 
want a higher focus that they just don't have the time to do at 
that point, they forward it and make that. So there is a real 
cooperative approach, and that's what we are recommending in 
this bill, as well.
    Mr. Weldon. Would both of you be willing to work with the 
subcommittee to address any issues that may be raised during 
this hearing and in future deliberations on the bill in order 
to try to perfect the legislation as we go through the process?
    Mr. Turner. Certainly, Mr. Chairman, and I think that 
there's probably some suggestions that can be made that would 
be very beneficial. Transferring an idea like this from the 
State Legislature to this Congress may require some 
modifications.
    Mr. Weldon. What about the impact on State employees in 
Texas? Has there been a loss of jobs as a consequence of this 
program?
    Mr. Brady. Actually, no. Somewhat like the Federal 
Government, Texas government is always looking for good 
employees. We always have a list of vacancies that are open. 
We're always--just like in our own offices up here, we're 
always looking for good people. What happens is that the other 
agencies tend to grab them pretty quickly in that process, 
because you always--like in the Federal Government here, we've 
got some 80,000 mid-level managers and senior-level managers 
who will retire just in the next 8 years. The number of other 
jobs is far greater than that. So they are quickly picked up.
    Mr. Weldon. My time has expired.
    I'd like to now recognize the ranking member for 5 minutes 
of questioning.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Representative Brady, I understand that 44 agencies have 
been abolished since this legislation was passed. Did you share 
what kind of agencies those were? I mean, what did some of them 
do?
    Mr. Brady. I don't have the full list, but, for example, 
when Congressman Turner and I were there, one of the more 
significant consolidations really were eliminating three or 
four different agencies creating one Texas Natural Resources 
Conservation Commission, much like our EPA, where we were able 
really to put the best parts of three or four separate agencies 
together, eliminate the areas that just no longer had 
usefulness, and beef up the areas we really wanted to focus on. 
That's one example of it.
    Mr. Davis. Were any of them agencies that had been fairly 
recently constituted, or were they agencies that may have been 
100 years old?
    Mr. Brady. In looking at all the States that have had 
sunset, the process seems to work this way, and it is sort of 
common sense, just like the legislation. In the first round of 
review, there's normally a high percentage of eliminations, 
averaging about 23 percent, because that's where you find the 
agencies that really have really outlived their usefulness. In 
subsequent reviews, that No. 10ds to go down and the focus 
becomes a more accountable streamlining, you know, working and 
be more responsive, so each review seems to have a sort of a 
different benefit that accrues from it. That's one of the 
reasons Jim and I believe so much in sunset--that in this bill 
we've sunsetted the Sunset Commission. I mean, if you want to 
hold others accountable, you ought to do the same, so we sunset 
it after two review cycles so that we all have an opportunity 
to find out if it is working for us.
    Mr. Davis. Jim, I noticed you use the terminology 
``clout,'' and I thought that was an Illinois term. [Laughter.]
    I didn't know that it extended to Texas.
    Mr. Turner. I knew it was a Chicago term.
    Mr. Davis. A Chicago term. But let me ask you, can this--I 
always thought that clout was sort of given by the people in 
terms of electing someone to do something. Can that clout be 
shared by individuals who are appointed and not necessarily 
elected?
    Mr. Turner. Mr. Davis, I think it can, because I think when 
you use that term we're--I was attempting to describe the 
degree of influence that one has in a given position. Clearly, 
you know, we have many Federal appointments that are very 
influential, and I think that an appointment to a Federal 
Sunset Commission, whether you are a legislative appointment or 
a public appointee by the President, would be deemed to be a 
very significant role, so I think that, even though in most of 
our legislatures or in many of our legislatures we have a 
stronger legislative branch than we do an executive--it's 
particularly true in Texas, where we have what most government 
professors would call a ``weak executive form of government.'' 
In the Congress and in Washington and the executive branch 
here, the executive branch is very powerful, and I think it is 
appropriate that there be some Presidential appointees to this 
type of review Commission.
    Keep in mind, once the Sunset Commission makes its 
recommendations, it is only a recommendation. It would be the 
Congress that would have to pass the enabling legislation to 
carry out whatever the Sunset Commission recommends. So we're 
not bypassing the Congress.
    And we've had occasions, I know, in Texas where the Sunset 
Commission recommended changes in an agency and they turned out 
not to be smooth sailing in the next legislative session and 
Legislature got hung up, couldn't pass the bill, and ended up 
passing a short-term extension of the agency for 2 more years 
so the process of sunsetting could be delayed while the Sunset 
Commission took another look or while the members of the 
legislature worked to try to see if they could reach some 
accord and pass the legislation to reform the agency.
    I suspect we would find that kind of process here when you 
made changes in agencies that were deemed to be controversial 
and difficult to reach an accord on.
    But, by and large, if you look at the list of the 44 
agencies that were abolished in Texas--and I wish we had 
brought it with us--you know, many of those agencies were small 
agencies. Many of them you find out that they were created, you 
know, 25 years ago. They have some single function that's 
really not that significant any more, and it was very easy, if 
they had legitimate functions, to place it in some other agency 
and eliminate the overhead and bureaucracy and the function 
goes on, and a lot of those abolishments were that type of 
changes.
    Mr. Davis. Thank you very much. Of course, in Illinois it 
is against the law to have a weak executive. [Laughter.]
    Thank you, Mr. Chairman.
    Mr. Weldon. The Chair now would like to recognize the 
gentlelady from the State of Maryland, Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman.
    Thank you, colleagues, for being here with this interesting 
proposition. I've always thought sunsetting made a great deal 
of sense in many instances. I have a concern about your 
proposal in terms of you say there would be an appointed 
Commission, prestigious Commission. You have to determine 
whether they serve for a period of time; you have to look at 
the kind of support network they would need, the kind of 
expertise they would need as they scrutinize each one of these 
agencies, and they've got to have some knowledge; whether there 
would be the adverse effect of a chilling effect on the part of 
the employees, make them want to kowtow to these 
Commissioners--all of that, if you can answer any of those 
concerns that I have.
    But let me ask, let me point out another thought. 
Paradoxically, in some of the States that have this sunset 
provision, instead of reducing the number of agencies they have 
actually increased the number of agencies. It has been called 
to my attention that Florida is one of those. They've sunsetted 
90 agencies since 1978, but they've created 104 new ones. Do 
you have any comments about how that would happen, and the 
concern of promoting a bureaucracy in order to have the 
expertise to look at each one of these agencies, and the 
problems of the idea of the chilling effect on the employees?
    Mr. Brady. If I may, Mr. Chairman, let me address that 
issue first. In Texas, at least--I don't know if it is this way 
in other States--it has actually had the opposite effect. 
Employees know that they have people's ears when sunset comes 
around. They are listened to very carefully. They actually have 
a process for input in the sunset area.
    What we've discovered is that, for example, in research 
areas, where there has never seemed to be enough money to do 
the needed research that can't be done anywhere else, those 
dollars are often diverted into programs that aren't as 
effective or aren't as needed, and government employees have 
been some of our best routes to root out the areas that don't 
have the priority today that they once did, in fact, and so 
they've actually been a big part of that role in the sunset 
act.
    Mrs. Morella. Would they know when they would be up for 
this process?
    Mr. Brady. My experience is yes.
    Mrs. Morella. They would know in advance that this is going 
to happen next year, we are going to be given the evaluation?
    Mr. Brady. And actually, the way the process works would be 
that the Sunset Commission would publish the dates through the 
whole 12-year cycle of who was being sunsetted what period. 
This raises one of the issues on Constitutionality on the bill, 
if I could address it real quickly----
    Mrs. Morella. Yes.
    Mr. Brady [continuing]. Because it sort of goes to what you 
asked.
    In looking at the bill, the only area that raised concern 
was the thought that the Legislature needs to set the 
expiration date where an agency is reviewed, and perhaps 
eliminated or consolidated or streamlined, rather than the 
Commission. We actually think that's helpful and can be 
addressed several different ways. The committee probably has 
its own ideas, but you could in the original legislation set 
the agency dates at that time.
    Second, part of this bill requires our agencies to work 
together to do a full program inventory of all of our programs 
by function. We could direct the Sunset Commission, as its 
first act, to bring back, to study those programs, put them in 
order where they can study them where they make sense, bring 
that back to the Congress to be----
    Mrs. Morella. Seems like a monumental responsibility.
    Mr. Brady. Well, actually, when you're looking at trying to 
save money that is being wasted and shift it to the agencies we 
really need that help and programs for, it's not.
    Mrs. Morella. Mr. Turner.
    Mr. Turner. Thank you, Mrs. Morella. You ask very good 
questions.
    I think, from my perspective, if there is created in the 
management of an agency some uncertainty, you do have to offer 
some expertise. It seems to me that what we're trying to do 
through this legislation is to exercise in a greater degree the 
responsibility that we all know this Congress has in terms of 
legislative oversight, and to effectively exercise that may 
occasionally cause agencies and managers in those agencies to 
be a little bit apprehensive.
    Now, the process, as it has worked in Texas, you do have 
together on the Commission staff some expertise. In our case, I 
could envision much of that coming from places like the General 
Accounting Office. The way we oftentimes exercise of oversight 
responsibility today is we ask the General Accounting Office to 
do a report, and occasionally they get read. What we do in the 
Sunset Commission is ask people who understand that agency, 
understand the body of law administered by that agency, to take 
a good, hard look at it, and the GAO I think has those types of 
people on board, and those are the types that could work on the 
staff of the Sunset Commission.
    After they've made a recommendation--i.e., done their 
report--you would know, in this process, that something is 
likely to happen, rather than the report collecting dust on a 
shelf.
    You know, it could be that on occasion agencies would be 
created. We're about, I assume, to do one with the INS by the 
proposal pending in Judiciary. We could very well find the 
Commission recommends splitting up an agency into different 
parts for some reason. But history is that there ends up being 
less bureaucracy as a result of this process.
    But I think that it is also important to understand that 
this process does not preclude the Congress from doing what we 
are contemplating doing with the INS. There's nothing about the 
sunset process that says that Congress can't, by its own 
initiative, look at an agency and change it. What we're doing 
in the sunset process is making sure that every agency, over a 
period of time, usually about every 12 years, gets this review, 
and we're not waiting for crises to determine whether an agency 
ought to be examined. It is institutionalized.
    I think that it is a healthy process that can save taxpayer 
dollars. And, in addition to emphasizing the savings, I think 
it can cause government to be more responsive to the public. It 
can cause services of an agency to be rendered in a more 
consumer-friendly and effective way, which is equally as 
important as the tax dollars we might save in the process of 
eliminating the so-called ``bureaucracy.''
    Mrs. Morella. Thank you.
    Mr. Weldon. The gentlelady's time has expired.
    Well, I want to thank both of our witnesses in the first 
panel. Your presentations have been most informative.
    I would like to now ask the second panel to come forward. 
It's actually one person. I'd like to welcome the Honorable 
Mark Everson, the controller of the Office of Federal Financial 
Management for OMB. Mr. Everson chairs the President's 
Management Council and leads the development of the traffic 
light score card that has been included in the President's 
budget.
    Last week, President Bush announced his intent to nominate 
Mr. Everson to the deputy director for management at OMB. This 
is a critically important position, and I would like to 
congratulate Mr. Everson on the pending nomination.
    It is the practice of the Government Reform Committee to 
swear in witnesses at all of our hearings, so, therefore, Mr. 
Everson, I would like you to now rise and raise your right 
hand.
    [Witness sworn.]
    Mr. Weldon. Would the court reporter please note the 
witness has answered in the affirmative.
    Mr. Everson, you are recognized for a 5-minute opening 
statement.

  STATEMENT OF MARK W. EVERSON, CONTROLLER, OFFICE OF FEDERAL 
     FINANCIAL MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Everson. Thank you. I think you have my full statement, 
Mr. Chairman, so I'll just cover parts of it.
    Mr. Chairman, members of the committee, I am pleased to be 
here and to represent the administration in support of this 
legislation. The President has called for and the 
administration strongly supports establishment of a Sunset 
Review Board at the Federal level with the specific charge to 
review every agency and every program at least once every 
decade.
    The administration supports a regular and rigorous 
examination of the efficiency and effectiveness of all Federal 
Government programs and agencies. We do have concerns about the 
structure and operation of the Commission, but we strongly 
support its fundamental purpose.
    There is much common ground between the President's 
proposal for a Sunset Review Board and the Sunset Commission in 
the legislation, and we will be getting to the committee later 
today, I believe, in fact, a detailed letter on the 
Constitutional issues from the Department of Justice, so that I 
think is on its way.
    We would note that the President has no role under the 
legislation, as currently drafted, in determining the 
composition of the Commission. We would hope to see that 
remedied.
    We would also urge you to consider some safeguards against 
the risk of delay in congressional action in the case that 
there would be normally a reauthorization but just hasn't yet 
been achieved by the Congress.
    Finally, I think one of the points that the Justice 
Department will be making is the retention of bicameralism and 
the presentation process to make sure that there is the same 
Presidential role and full role of the Congress in abolishment 
of agencies as normally exists in the legislative process.
    As I mentioned, during the campaign President Bush gave 
strong support for a Federal Commission or board such as that 
proposed in the legislation, and he did have experience, as was 
indicated, in Texas. As part of the President's management 
agenda, which you mentioned, the administration has included as 
one of five Government-wide initiatives budget and performance 
integration. This initiative has a simple purpose--to improve 
programs by focusing on performance and results.
    The administration has launched, with the 2003 budget, a 
process that is consistent with the broad objectives of the 
sunset legislation by proposing to reinforce provably strong 
programs and to redirect funds in many cases from programs that 
demonstrably fail or cannot offer evidence of success.
    I don't know if you've all seen the budget in detail, but 
if you go into any one of the chapters we've evaluated, we've 
taken a first cut at evaluating program effectiveness by 
indicating whether programs are effective, ineffective, 
moderately effective, or, in the case where there is enough 
data on outcomes, of unknown effectiveness.
    So we see the need for rigorous methodology for assessing 
program results and effectiveness as entirely consistent with 
this effort here, and we are actually reaching out at this time 
to the academic community and others to try and refine our 
methodologies to improve the program evaluations that we're 
undertaking as a part of the President's management agenda.
    I believe both Congressmen Brady and Turner are correct in 
trying to launch this sort of initiative. There is broad 
support for getting more examination of government results, 
I've indicated in the prepared testimony. I'd just like to 
quote the Comptroller General from some recent testimony. He 
indicated that, ``A fundamental review of existing programs and 
operations can create much-needed fiscal flexibility to address 
emerging needs by weeding out programs that have proven to be 
outdated, poorly targeted, or inefficient in their design and 
management. It is always easier to subject proposals for new 
activities or programs to greater scrutiny than that given to 
existing ones.''
    We also believe that, at a minimum, it is time to 
reinstitute permanent reorganization authority for the 
President to permit expedited legislative approval of plans to 
reorganize the executive branch. That's something I would also 
draw to your attention.
    I'd just like to say in closing, again, we strongly support 
this concept. I was very pleased to hear the remarks of your 
two opening witnesses.
    I would be happy to take any questions from the committee.
    [The prepared statement of Mr. Everson follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.011
    
    [GRAPHIC] [TIFF OMITTED] T6196.012
    
    [GRAPHIC] [TIFF OMITTED] T6196.013
    
    Mr. Weldon. Thank you, Mr. Everson.
    The Chair now recognizes himself for 5 minutes for 
questioning.
    Could you be a little bit more specific on the Presidential 
involvement? Are you talking about perhaps the President having 
the right to appoint some members of the Commission?
    Mr. Everson. I think that certainly would be our preferred 
position, and that, as in so many other instances, the 
President makes an appointment and then the Senate reviews the 
appointment and consents to the appointment.
    Mr. Weldon. The entire Commission?
    Mr. Everson. I think that would be the easiest way to 
resolve some of the appointment clause issues. And let me 
stress I don't want to get outside my area of expertise here on 
Constitutionality, and I think the letter will address all of 
this, but some of the functions that are--some of the technical 
powers given to the Commission under the legislation, as drawn, 
do get into questions of, I gather, the appointments clause and 
certain duties and ability to execute certain actions, so I 
think we'll have some rather technical comments on that would 
get to the substance of it all.
    Mr. Weldon. I was very interested in your comments about 
safeguards against the risk of delay in congressional 
consideration. Could you describe how any authorities in the 
legislation could be crafted in such a way to avoid the 
Constitutional issues that have been raised?
    Mr. Everson. I think we would be happy to work with you on 
that element of it, but recognizing that there are some 
functions in the government that are obviously much more 
important to have an ability to retained in others defense, to 
cite one that was already talked about briefly earlier on. But 
I think we are simply suggesting that this automatic mechanism, 
where things really, simply because of the passage of time, 
would expire without full legislative action or the involvement 
of the President, that does constitute a problem. Perhaps with 
a bridge period before you would get to such definitive action, 
you could retain much of what is sought here.
    Mr. Weldon. Well, my concern in that is that any language--
you know, typically the way the Congress keeps agencies alive 
that have never been reauthorized in years and years and years 
is by inserting reauthorization language----
    Mr. Everson. Right.
    Mr. Weldon [continuing]. Into the Appropriation Act, and 
any provisions that could be inserted into this legislation to 
try to force a reauthorization could be construed, I think, as 
violating the separation of powers and getting into 
Constitutional questions, so certainly any language that might 
help us come closer to that I would be very happy to look 
favorably on, assuming that it met Constitutional concerns.
    Mr. Everson. We would be happy to provide that for you, 
sir.
    Mr. Weldon. I have been very pleased with the initiatives 
coming from the administration in terms of rating agencies on 
their effectiveness. In your statement you alluded a little bit 
to how this legislation could complement what the president is 
doing in that. Could you expand on that a little bit more for 
me?
    Mr. Everson. Sure.
    Mr. Weldon. You kind of brushed over it in your statement.
    Mr. Everson. Yes. What we did in this first round, if you 
will, really did not attempt to cover the full range of 
government programs. We took some programs. We're in the 
process now of internally developing our guidance for the 2004 
budget process, and we are going to establish a methodology, if 
you will. We're actually convening a workshop--the National 
Science Foundation is doing this very soon--to cover the 
methodologies on how we would do some of these evaluations, and 
we will have a period of time where we will get, over a period 
of several years, full evaluations of all programs and 
agencies.
    What this does--and I agree with both Congressmen Brady and 
Turner--having this set timeline, a set time table where you 
get to every program over a specified schedule, that 
strengthens this very concept, because you are holding people 
accountable, you know that your turn at bat is coming, and so 
often I would say my reflection on coming back into Government 
is that you push out the issue. You push out the day of 
reckoning. When you have a clear schedule, that's helpful. I 
think this methodology is consistent with what we are 
developing right now internally in the administration to look 
at everything.
    Mr. Weldon. Do you believe the law should formally 
incorporate some of the provisions the President is pursuing, 
such as requiring a review for an agency that has been rated by 
the administration as being ineffective?
    Mr. Everson. A review by this Commission or a review----
    Mr. Weldon. This Commission.
    Mr. Everson [continuing]. By OMB?
    Mr. Weldon. This Commission.
    Mr. Everson. My initial--I'd like to reflect on it, but my 
initial instinct is probably yes, because the more scrutiny we 
can bring to the things that aren't working--and this assumes 
that we've gotten to a point where we have an agreement on the 
methodology. Here, again, we want to be very clear that we have 
value neutral, very sustainable criteria for forming these 
evaluations so that you don't get, as you mentioned, one 
program that's doing something in education being judged 
differently than another program in another agency that's also 
doing things in education. You level the playing field, and 
then you find certain programs are less effective than others. 
Yes, anything that brings focus on those that are behind is 
helpful.
    Mr. Weldon. I see my time has expired. I'd like to now 
recognize the gentleman from Illinois for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Everson, as I mentioned in my opening statement, the 
Department of Justice issued a legal opinion on this 
legislation in 1998. Have you sought or obtained any further 
legal opinion from Justice on this type of legislation?
    Mr. Everson. As I indicated, sir, there will be a letter 
coming either today or tomorrow that addresses the issues that 
we see in the legislation, I think summarizing one being the 
appointments area, another being principally being this 
retention of the Presidential role and the full congressional 
role in terms of the abolition of the agencies, but we will 
have a detailed letter to you shortly.
    Mr. Davis. In 1998, Mr. Deceive, who was then acting deputy 
director for management, opposed this legislation because, 
among other things, the administration believed that it 
established procedures that would supersede the authority of 
the President and Congress----
    Mr. Everson. Right.
    Mr. Davis [continuing]. In reality. Do you have any 
opinions in relationship to the----
    Mr. Everson. I think the comments from Justice will 
indicate that we do feel you need to retain the role--once the 
Commission is taken, it has made its recommendations, the role 
of the full Congress and the President in ratifying, or not the 
ultimate decision of the Commission, so that would be one 
point.
    But as to the internal role of OMB, I said to Congressman 
Brady and Congressman Turner a few minutes ago, this was a very 
short discussion that we had--Mitch and some of the others had, 
and myself--because we believe the more focus you bring on 
program effectiveness and whether people are--the citizenry is 
getting its money's worth, that's better. That's positive. So 
we're not turf conscious here in saying that there shouldn't be 
others who are looking at the effectiveness of progress. We're 
not saying we should have the only role by far in making 
proposals of what should be abolished or not.
    Mr. Davis. If I recall, Representative Turner expressed 
appreciation for the fact that the President was supportive. 
Now, is the President supportive of the concept of a 
Commission, or is the President supportive of this legislation?
    Mr. Everson. The administration--the President is 
supportive of the concept of the Commission as incorporating 
some modifications, some of which I've mentioned, and others 
that we would be happy to work with the committee on. I mean, 
obviously we have strongly held positions on these 
Constitutional and appointment issues. So we would want to go 
forward with you and very much address those.
    Mr. Davis. Thank you very much.
    Mr. Chairman, I have no further questions.
    Mr. Weldon. I thank the ranking member, and I now yield to 
the gentlelady from Maryland for 5 minutes.
    Mrs. Morella. Thank you. Thanks, Mr. Chairman. I find this 
very interesting.
    I'm curious. You know, I've pointed out that there have 
been some instances where States have actually added the 
agencies, and Mr. Turner's response was, ``Well, they still add 
up to a savings.'' A possibility. But, you know, there are 12 
States I understand that did have this sunset provision that 
dropped it, and I'm curious about why they have dropped it.
    Mr. Everson. I'm sorry, Congresswoman, I don't have 
detailed knowledge of the experience of the individual States. 
I'm approaching this really from the point of view of trying to 
get the intellectual support and the extra scrutiny on 
effectiveness, so we would take a view, if the result was--I 
can tell you this: if the result was that we should have 
another agency, we would support that. This is, from our point 
of view, about evaluating effectiveness and what works or 
doesn't work for the taxpayers, so it is, for us, a value 
neutral proposition. Obviously, we think over time we're going 
to get savings, but if in one instance there was growth in the 
drug area--you mentioned drugs before. If that's the right 
answer, because of a good evaluation of program effectiveness, 
then that's an answer we would want to support, from a 
management point of view.
    Mrs. Morella. Incidentally, congratulations on your 
appointment.
    Mr. Everson. Thank you.
    Mrs. Morella. You know, we passed GPRA--Government 
Performance and Results Act.
    Mr. Everson. Right.
    Mrs. Morella. We looked to that and we say, ``Hey, this is 
the way to really discern whether we're getting the results 
that we really want.'' So I just wonder if this is going to be 
overlapping, or does it mean that GPRA is not working or we're 
not assessing enough?
    And then I pick up on what was mentioned with the first 
panel, and our chairman mentioned that, and that is the delay 
strategy. I sit here thinking about the fact that almost every 
year we have the continuing resolution and almost every year we 
have items that are in the appropriations bills that were not 
authorized--I mean, even appropriated and not even authorized 
in the appropriations bill sometimes.
    So I just think that maybe it works in some States, but do 
you realize how vast this is going to be to try to make it 
applicable to the Federal Government? Do we need to do that? 
Maybe there is another way of doing it. I am concerned about 
also the bureaucracy that this may be creating.
    Mr. Everson. Let me say to you, Congresswoman, probably no 
one better than I realizes how vast the Government is, given 
the job that I'm trying to now do. Particularly in this 
management area, whenever you get into evaluation and 
assessment, the first answer you get to or the first reason not 
to proceed is the one you just cited--that it's too 
complicated, it's too far-flung, there are too many differences 
in the programs.
    I think that our approach would be that you've got to start 
and you've got to instill that discipline that has been 
articulated by the Congressmen, the first panelists, so well.
    Let me come back to GPRA. I would think that one of the 
things that this Commission would do is strengthen the GPRA 
process, because it would do what the administration and the 
Congress, frankly, have not done as well as they could, which 
is to take a look at the strategic objectives of these 
departments and agencies and then to see whether the outcomes 
of the programs correlate to the objectives that were set under 
the GPRA process. I think these are glossed over far too 
frequently and everything is looked, as the Comptroller General 
indicated, on a basis of incremental change. It doesn't--you're 
not going back and looking at the broad strokes of are you 
educating the children better or are the streets safer. 
Instead, you're looking at, ``Do we have more teachers or do we 
have more police officers?'' I think this Commission, this 
concept would advance that GPRA concept that you mentioned.
    Mrs. Morella. Yes. Does the legislation affect or address 
the releasing of sensitive information that might well come out 
in the review process?
    Mr. Everson. I'm not sure. I'm not sure that it does get to 
that. Could you clarify maybe what you would mean by that 
information?
    Mrs. Morella. Well, there might be some information that 
should not be public, publicly declared, and I would hope that 
there would be some way of preserving some intelligence 
information.
    Mr. Everson. Right. Sure. Of course. That should be 
adequately addressed. I agree with you there 100 percent.
    Mrs. Morella. Yes.
    Mr. Chairman, I think I'll yield back. But I think the 
concept has some merit, but I think it needs a lot more work on 
some of the various details of it.
    Thank you.
    Mr. Weldon. I thank the gentlelady.
    I would just point out on page 13 of the act line nine, it 
includes a paragraph, ``The extent to which the agency, as part 
of their evaluation, has complied with the provisions contained 
in the Government Performance and Results Act of 1993.''
    I'd like to now recognize the gentlelady from the District 
of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Everson, I don't envy the position you have been put in 
to come and testify about a bill with a pending Constitutional 
memo due you, and to somehow appear before our committee.
    The issues, as you must realize, raised by this proposal 
fairly pulsate with Constitutional questions.
    Mr. Everson. Yes.
    Ms. Norton. Each State has its own Constitution, and I 
understand the State of Texas is where it has inspired this 
bill. I've not looked at the Texas Constitution, but I have 
looked closely at our Constitution.
    Mr. Everson. Yes.
    Ms. Norton. I continue to--I taught full time at Georgetown 
before coming to Congress, and continue to teach a course 
called, ``Lawmaking and statutory construction.'' The main 
theory of the course is the separation of powers has left us a 
cumbersome system, perhaps too cumbersome for the 21st century, 
when we are competing against parliamentary democracies that 
can--with unified governments that can make a decision, and 
that's it.
    And so I challenge my students, ``Help us to come to the 
point where there are sufficient shortcuts in our system----''
    Mr. Everson. Right.
    Ms. Norton [continuing]. ``So that the brilliant separation 
of powers system created in the 18th century is not obsolete 
today.''
    I am not unsympathetic with the motivation behind this 
bill, although my interest is not so much the mundane notion 
of, ``Shall there be one committee or another committee,'' but 
I think the earth-shattering notion of whether or not, with 
separation of powers government, one can compete with 
parliamentary governments that can make a decision about 
Microsoft and that's it, not 10 years of litigation. I think 
this is a serious question. It is a marvelous intellectual 
challenge.
    I can only say to you that I am reminded of how the Supreme 
Court has struck down our shortcuts time and time again, the 
one-house veto. I mean, I could go on and on.
    Mr. Everson. Yes.
    Ms. Norton. They have been fairly clear about the 
presentment clause, about needing both Houses of Congress, and 
I admire the fact that Congress was seeking ways around this 
cumbersome system. I think it is a brilliant system and I think 
we've got to put our best minds to thinking how to preserve it 
and make it efficient in a global market economy.
    Now, the first thing--you talk about what the President 
wants to do. I think you would get bipartisan support for 
budget and performance integration to improve programs that are 
focusing on results. I mean, you know, here's the problem. 
Here's the evidence. It would be pretty hard to say, unless you 
just have some political reason for wanting an agency to exist.
    Many Members will instantly believe that their own 
jurisdiction is being usurped by a few Members, so, you know, 
first you're going to get people in your face with that.
    Your notion about a Presidential Commission I don't think 
improves this bill because we have had Presidential Commissions 
since the beginning of time. They can recommend. They then have 
a Member put in a bill. But I don't think you get the instant 
result that this bill would try to get.
    Until we find the shortcut that is Constitutional and does 
not raise more questions than it solves, I would advise that 
the President's own Sunset Review Board--you could think more 
deeply about it and whether some of the problems raised by this 
bill could be solved administratively rather than spend the 
next seven or 8 years in court trying to find out whether or 
not this suggestion is Constitutional.
    Mr. Everson. Yes. If I might respond, first, I very much 
appreciate what I consider very eloquent questioning or 
presentation of our system and its broadest elements in the 
European model. I've lived overseas, most recently in France, 
and, although I guess with their elections you can't actually 
cite the French as maybe getting the best results.
    Ms. Norton. OK. Cite the British.
    Mr. Everson. The British. Yes. Please. Thank you.
    I think it really does--the issue you pose of the 
government being led by the leader of the legislative branch, 
it is a different system. As you point out equally correctly, 
we do have the checks that ensure very real democratic 
processes.
    I think that what we'll come up with in the commentary that 
we'll provide from the Justice Department will get back to a 
correct weighing of things like the Chada decision and others 
that you're getting to, so that perhaps some will be 
disappointed with the solution as not breathtaking enough or 
not leaving a strong enough shortcut role for the Commission, 
if you will, but again we would still think it is worth doing 
because of the focus it will bring on a regularly scheduled 
basis to the activities of these agencies, many of which have 
expanded or outlived their usefulness or now are duplicated by 
other entities of the government.
    Ms. Norton. Thank you.
    Thank you, Mr. Chairman.
    Mr. Weldon. Well, I thank the gentlelady for her very 
erudite comments. I thank our witness, Mr. Everson, for his 
testimony. It has been most helpful.
    I'd like to now call the third panel to come before the 
committee.
    I would like to extend a welcome to the members of the 
third panel. Each of these gentleman represents a watchdog 
organization dedicated to safeguarding the interests of the 
American people, the American taxpayers.
    Mr. Thomas Schatz is president of Citizens Against 
Government Waste [CAGW]. Citizens Against Government Waste's 
mission is to eliminate waste, fraud, and abuse, and 
mismanagement in the Federal Government.
    I'd also like to welcome Mr. Chris Edwards, who is the 
director of fiscal policy studies at the Cato Institute. Mr. 
Edwards has close to a decade of experience in tax and budget 
policy, including working as a senior economist on the Joint 
Economic Committee.
    I'd also like to welcome Mr. John Berthoud. He is president 
of the National Taxpayers Union, a well-known, nationwide, 
grassroots lobbying organization of taxpayers.
    Gentlemen, it is the practice of the Government Reform 
Committee to swear in witnesses at all of our hearings. I'd ask 
that you now rise and raise your right hands and I will 
administer the oath.
    [Witnesses sworn.]
    Mr. Weldon. Let the court reporter please note the 
witnesses have answered in the affirmative.
    We'll proceed from my left to right, your right to left. 
We'll begin with you, Mr. Schatz. I'd ask that each of the 
witnesses please try your best to summarize your comments to 5 
minutes.

  STATEMENTS OF THOMAS A. SCHATZ, PRESIDENT, CITIZENS AGAINST 
  GOVERNMENT WASTE; JOHN BERTHOUD, PRESIDENT OF THE NATIONAL 
TAXPAYERS UNION; AND CHRIS EDWARDS, DIRECTOR OF FISCAL POLICY, 
                         CATO INSTITUTE

    Mr. Schatz. Thank you very much, Mr. Chairman. I appreciate 
being here today on behalf of the more than 1 million members 
and supporters of Citizens Against Government Waste, and 
appreciate also the opportunity to provide testimony on H.R. 
2373, the Abolishment of Obsolete Agencies and Federal Sunset 
Act of 2001.
    We have quoted President Reagan that the nearest thing to 
eternal life we'll ever see on life is a government program. 
You obviously found an earlier quote. But it is still, 
nonetheless, a perennial problem in Washington. The big issue 
today is apparently what to do and how to do it in a way that 
meets everybody's satisfaction in terms of Constitutionality 
and achieving the goals.
    A number of items that are already in place have been 
mentioned--Government Performance and Results Act, the listing 
of items in the President's budget for the first time with the 
score card. Ultimately, whether we have a Sunset Commission--
and hopefully we will when that passes the Constitutional 
questions--it is really, in the end, up to the Members of 
Congress to make decisions about what to do about the 
information that is before them regarding these agencies.
    It seems that a Sunset Commission would add to the 
intelligence about what is working and what is not in 
Washington, and certainly it puts pressure on the agencies, 
themselves, to continue to justify their existence.
    As we've seen time and again, programs and agencies are 
included in appropriations bills without being reauthorized. 
The authorizing committees, themselves, are, on numerous 
occasions, distraught by the activity of the Appropriations 
Committee, because they are unable to get to the work that they 
need to do. I think the Sunset Commission would be a welcome 
addition to the question of what to do in terms of true review 
of how the programs are working.
    We are facing, obviously, very troubled times, obviously, 
the war on terrorism being of the prominent consideration in 
the budget for this year and in the foreseeable future, and we 
also have a different type of revenue flow to the Federal 
Government than we had just a year or two ago. Both of those 
problems will continue to put pressure on determining whether 
or not we are putting our resources in the appropriate places.
    The Sunset Act does not make a determination of which 
agencies should be reformed, reorganized, or eliminated. It 
simply creates this 12-member Commission to assign an 
expiration date to every agency. Twelve years would be the 
normal length, and it could be shorter if Congress thought that 
was appropriate.
    It draws on the resources of the Comptroller General, the 
Congressional Budget Office, and the Congressional Research 
Service, who prepare an inventory of Federal programs within 
each agency to assist and advise the Commission and Congress in 
implementing the requirements of the act. It also instructs the 
Commission to consider the need and purpose of each agency if 
each operates efficiently, if the agency's programs are 
duplicative, and whether the agency is in compliance with the 
Government Performance and Results Act.
    One of the tougher issues when it comes to establishing the 
mission and determining the performance of Federal agencies is 
not necessarily whether it is meeting its own goals, but 
whether it duplicates the activities of another agency. 
Agencies tend to look inside themselves and even committees of 
Congress tend to look only at the jurisdiction that they have 
and not outside the parameters of what they are considering in 
terms of what might be duplicative elsewhere in the Federal 
Government. With a Sunset Commission, it would be, I think, 
easier for Congress to look at what is really out there and 
what is being duplicated before a committee or the Congress, 
itself, votes on creating a new program.
    The Commission will evaluate the agency and submit 
recommendations as to whether they should be abolished, 
streamlined, or reorganized, also provide suggestions for 
administrative and legislative action. If Congress does 
reauthorize the agency, it will assign a sunset date.
    This has worked well in Texas and in a number of the other 
States that have sunset laws, and when one looks at all of the 
lists of programs that are considered wasteful, inefficient, 
duplicative, there are many, many out there, but there are not 
many objective ways that they can be evaluated so that the 
public can get a better idea of what is working and what is 
not. The President's budget certainly takes a first step in 
that direction. We welcome that.
    Mr. Chairman, I appreciate the opportunity to appear before 
you today. We feel that it doesn't matter if an agency was 
created a year ago or 100 years ago. Our tax dollars are 
stretched to the limit, and we believe this will be a welcome 
step in determining where our priorities should lie.
    Thank you.
    Mr. Weldon. Thank you, Mr. Schatz.
    [The prepared statement of Mr. Schatz follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.020
    
    [GRAPHIC] [TIFF OMITTED] T6196.021
    
    [GRAPHIC] [TIFF OMITTED] T6196.022
    
    [GRAPHIC] [TIFF OMITTED] T6196.023
    
    [GRAPHIC] [TIFF OMITTED] T6196.024
    
    [GRAPHIC] [TIFF OMITTED] T6196.014
    
    [GRAPHIC] [TIFF OMITTED] T6196.015
    
    [GRAPHIC] [TIFF OMITTED] T6196.016
    
    [GRAPHIC] [TIFF OMITTED] T6196.017
    
    [GRAPHIC] [TIFF OMITTED] T6196.018
    
    [GRAPHIC] [TIFF OMITTED] T6196.019
    
    Mr. Weldon. Mr. Berthoud.
    Mr. Berthoud. Chairman Weldon and distinguished members of 
the committee, thank you very much for inviting us here today. 
I am John Berthoud, president of the National Taxpayers Union. 
We have 335,000 members nationwide, and we have been a long-
time supporter of budget process reforms, and so we are pleased 
to speak and support this legislation.
    Delegate Norton asked some very important questions, I 
think, about delegation. It seems to be a--there's some 
agreement among all members of the committee that there are 
issues of duplication, excess, and I think we all, no matter 
what political philosophy we come from, would rather see 
dollars spent in more efficacious ways than in what we might 
identify as waste and abuse, and the issue is how, within the 
constructs that the founding fathers gave us 225 years ago, can 
we best create a process to eliminate that which is no longer 
useful, that which is no longer necessary. I think, which there 
is some agreement among all of us here today, that there is at 
least some problem to that degree in the Federal Government.
    Delegating--the issues of Congress delegating powers, 
Congress binding itself to future--in future Congresses has 
been an issue perennially, both in a programmatic sense such as 
entitlements, where one Congress binds future Congresses, and 
in process reforms. We can go back to the Gramm-Rudman-Hollings 
legislation of 1995--excuse me, 1985, which was struck down in 
the Bowsher v. Cynar case and then resurrected in 1987, we can 
also look at something we support. And we supported the Gramm-
Rudman very strongly. We also supported the BRAC process, 
creating an independent Commission to cut spending in an area 
where most would agree that excess had crept up in.
    And so what we look at your efforts, Mr. Chairman and 
members of the committee, with this legislation is to craft 
legislation that passes Constitutional muster, that will not 
perfect the process--we don't see any magic golden bullets in 
the legislative process--but that will improve the process 
within Constitutional bounds. For us it is an issue of 
government by inertia versus greater review and the possibility 
of dislocation. I think Congresswoman Morella in her questions 
was asking about the possibility for upset and dislocation in 
agencies. I don't think necessarily that's a bad thing. If 
agencies have to hustle and have to, you know, either 
reorganize themselves or occasionally go out of business 
because their functions are not the best use of Federal 
dollars, that is a good thing for taxpayers and for, indeed, 
all Americans.
    Let me say a couple words about a somewhat analogous 
process, the budget. The Base Closing and Realignment 
Commission, which was first sponsored in the late 1980's by a 
still relatively obscure Texan again--seems to be something 
about Texas today--named Dick Armey who worked with Members on 
both sides of the aisle to create an independent Commission 
that would select sites for closing.
    Besides getting a list of recommendations from an impending 
Commission, the BRAC process had another very unique aspect, 
which was that all recommendations had to either be accepted by 
Congress as a whole or rejected. No log-rolling was allowed. So 
legislators whose Districts were adversely impacted could not 
trade votes with other legislators, although it did certainly 
cause some legislative discomfort.
    The Congress we believe wisely passed the BRAC process. 
We've had four rounds of base closings in ensuing years, and 
the Defense Department estimates that taxpayers are currently 
saving $6 billion per year because of those BRAC rounds. I 
think that's the kind of savings--and what happens to those 
dollars, now we might have a debate. I might say those dollars 
should go back to taxpayers. Others might see those dollars as 
being going to other programs. That, to me, seems to be a very 
healthy and very positive debate. But a politics of inertia 
where those dollars just stay in obsolete bases or, in the case 
of today, obsolete programs seems to be a lose/lose for all 
concerned.
    So for us the message from the BRAC process is clear: 
independent Commissions can provide very effective assistance 
to the job of ferreting out waste, and so we also particularly 
applaud the mechanism in H.R. 2373 that requires an affirmative 
act of Congress, congressional reauthorization for an agency. 
The legislation specifies that otherwise agency would 
terminate. Such a process would ensure that programs continue 
to exist not simply because of inertia, but rather because 
America has a continuing need for them.
    So, Mr. Chairman, we applaud this legislation. We thank 
Congressman Brady and Congressman Turner for their good 
efforts.
    On behalf of our 335,000 members, we would encourage you 
and the members of the committee to work through the 
Constitutional issues, hopefully with advice from the 
Department of Justice, and get legislation that will help us 
re-prioritize and better spend Federal dollars.
    Thank you very much.
    Mr. Weldon. Thank you very much.
    [The prepared statement of Mr. Berthoud follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.025
    
    [GRAPHIC] [TIFF OMITTED] T6196.026
    
    [GRAPHIC] [TIFF OMITTED] T6196.027
    
    [GRAPHIC] [TIFF OMITTED] T6196.028
    
    [GRAPHIC] [TIFF OMITTED] T6196.029
    
    [GRAPHIC] [TIFF OMITTED] T6196.030
    
    Mr. Weldon. Mr. Edwards, you may proceed. You are 
recognized.
    Mr. Edwards. Thank you very much, Mr. Chairman and members 
of the committee, for allowing me to testify today regarding 
the Abolishment of Obsolete Agencies and Federal Sunset Act. 
Establishing a systematic procedure to review all agencies and 
abolish unneeded ones is a great idea. It is an idea that would 
be a sound management practice in any large organization, 
especially one as big as the $2 trillion Federal Government.
    Sunset legislation has been debated before, as you know, at 
the Federal level. In the late 1970's there was a strong 
bipartisan movement to pass Federal sunset legislation 
introduced by Senator Ed Muskie. It would have sunset most 
Federal programs every 10 years. Supporters of the sunset 
legislation at the time ranged all the way from Jesse Helms and 
William Roth to Ed Kennedy and John Glenn.
    Twenty-five years later, the need to reform, review, and 
abolish Federal agencies and programs is much greater. Today 
the explosive budget costs of the baby boomers loom on the 
horizon. The country has more than two decades of experiences 
with Federal agency and program failures, and a privatization 
revolution has swept the world, but not yet this country.
    Let me illustrate the need for Federal sunset legislation 
by contrasting private industry with the Government industry. 
In the private sector, companies are sunset routinely when 
their products are no longer needed. For example, retailer 
Montgomery Ward was recently sunset by the market, and it looks 
like K-Mart may be next. That's good news for the overall 
economy, because it means that more efficient methods of 
satisfying the public have arrived. Wal-Mart and Target come to 
mind. By contrast, there is no structured method to sunset 
Federal agencies when they no longer serve a useful or cost-
effective purpose.
    In the private sector, companies also get sunsetted if they 
follow shoddy financial practices. Enron, of course, is a 
recent example. By contrast, Government agencies are often 
dreadful financial performers year in and year out but face no 
effective sanction to enforce better results.
    The administration's 2003 budget notes that Amtrak has 
utterly failed to wean itself off subsidies and is a futile 
system. Clearly, Amtrak should have been up for sunset review 
many years ago.
    Overall--and these are staggering statistics--10 percent of 
all businesses in the United States go out of business every 
year, and 10 percent of all private sector jobs disappear 
either through business contractions or failures. Now look at 
Government. While Members of Congress are threatened with 
sunsetting every 2 years, the executive branch has no mechanism 
to create the constant renewal that every organization needs in 
our fast-changing society, so in the private sector poor 
performers are routinely weeded out and Federal sunset law can 
help bring that private sector dynamism to the Federal 
Government.
    There have, of course, been numerous attempts to bring 
private sector management practices into the executive branch 
of Government. The Bush administration has launched an effort 
to grade programs as effective and ineffective, as has been 
discussed today, but that initiative needs and enforcement 
mechanism, and I think the Federal sunset law would be a way to 
enforce the administration's management initiatives.
    Aside from reforming programs, of course, a Federal Sunset 
Commission would ask the more fundamental question of whether 
an agency or program ought to exist at all. For example, the 
public cannot rely on the Agriculture Committees in the House 
and Senate, for example, to eliminate unneeded farming 
programs, as this year's farm debate makes clear. Congress 
needs an independent voice within Congress to push for needed 
reforms.
    This committee should consider how a Sunset Commission 
could build on the administration's new management rating 
system to cut wasteful spending. As I think has been mentioned, 
I think a good idea would be, say, 5 years in a row of 
ineffective grades from the OMB for a Federal agency should 
trigger perhaps an automatic Sunset Commission review.
    Let me suggest an additional idea that the committee may 
want to consider with this sort of legislation. Aside from 
proposing agency reforms and termination of wasteful spending, 
the Federal Sunset Commission ought to have a broad capability 
to proactively study how agencies could be transferred to the 
private sector. Privatization is an idea that has transformed 
economies around the world, but the Federal Government has so 
far been oddly resistant to the idea, even for obvious 
candidates such as Amtrak. The Federal Sunset Commission could 
examine privatization models that have worked elsewhere, such 
as Canada's privatization of air traffic control or Britain's 
privatization of some military facilities, or Germany's 
privatization of its post office, and figure out how to 
implement ideas here.
    So, at minimum, a Federal Sunset Commission could help 
uncover serious management lapses at agencies before they 
explode into crises. The current overhaul of the horribly run 
Immigration and Naturalization Service would have been 
completed probably years ago if the Federal Sunset Commission 
had been in place. But, beyond averting management disasters, a 
Sunset Commission could determine which agencies and programs 
are needed at all.
    With the coming budget pressures of entitlement programs 
set to explode with the retirement of baby boomers, we need to 
start terminating and privatizing as many government programs 
as we possibly can so that the next generation is not crushed 
with taxes.
    Thank you for holding these important hearings. I look 
forward to working with the committee on these issues.
    Mr. Weldon. Thank you, Mr. Edwards.
    [The prepared statement of Mr. Edwards follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.031
    
    [GRAPHIC] [TIFF OMITTED] T6196.032
    
    [GRAPHIC] [TIFF OMITTED] T6196.033
    
    [GRAPHIC] [TIFF OMITTED] T6196.034
    
    Mr. Weldon. The Chair now recognizes himself for 5 minutes.
    I'd ask all the members of the committee maybe to respond 
to this. There are some people who would say that the sunset 
process is not necessary because Congress already has 
sufficient authority to oversee the Federal Government and 
eliminate agencies and programs that do not work. How do we 
respond to that type of criticism against this legislation?
    Mr. Schatz. Yes, Mr. Chairman, the Congress does have that 
authority. Unfortunately, it's not exercised very often. As I 
mentioned in my remarks, the committees, themselves, get caught 
up in the programs and agencies that are under their 
jurisdiction and often are unable or, in some cases, unwilling 
to see the duplication that lies elsewhere in the Federal 
Government.
    One very important role that a Sunset Commission would play 
would be to determine whether a program or an agency is 
duplicative and whether or not it is performing the way it is 
supposed to; therefore, giving a more objective list and 
evaluation to the committee. It would also help educate the 
public about whether or not these particular programs and 
agencies are doing what they're supposed to do and taxpayers 
can go to really one place to find out what's going on. Right 
now there's so much that is involved in terms of getting 
information from Congress, in terms of finding what you're 
looking for, that I think the Sunset Commission would help 
address that particular issue.
    Mr. Berthoud. Mr. Chairman, I think that's a good question. 
If you look at the small case study that I suggested, which is 
base closings, both the first Bush administration and the 
Clinton administration, their Department of Defense every year 
would publish statistics about the decline, huge decline post 
end of the cold war in military spending, in military 
personnel, in procurement dollars, and the area of spending in 
Defense that was least scathed or most unscathed was military 
bases. Congress certainly had the power and the ability, but 
the institutional logic was not there and military independent 
base closing process helped facilitate a need that 
institutional politics of Congress was not able to adequately 
do by itself.
    So I think absolutely you are correct that Congress has the 
ability to do it, but Congress has not done as good a job as it 
can, and I think this process would help it do better.
    Mr. Edwards. I would agree with those comments, and I would 
say that often the problem is, of course, that the authorizing 
committees get captured by the industry they're supposed to be 
overseeing. I mean, the Agriculture Committees in the House and 
Senate I think are a good example. They seem to be very 
resistant to farm reforms that, you know, there's wide 
agreement in the private sector, everyone from the ``Washington 
Post'' to the Cato Institute agrees that farm programs need 
reform, and yet it didn't happen this year.
    Also, you know, the Federal Government is so vast that 
often, you know, problems are below the surface for many years, 
and, you know, obviously Members can only focus on narrow 
issues, and, you know, problems at the INS were sort of under 
the surface for many years, but until a crisis occurs it often 
doesn't get on the congressional agenda, so I think the sunset 
process would be a way to get problem agencies onto the agenda 
for Congress to take a look at.
    Mr. Weldon. Do you any of you have any insight into this 
issue of how you appoint the Commission? The legislation, as it 
has been crafted by Mr. Brady and Mr. Turner--and I think Mr. 
Doggett was also involved in drafting this legislation--calls 
for, I think, all the members to be appointed by the 
legislative branch. It was recommended possibly they could all 
be appointed by the President and confirmed by the Senate. I 
think that's another extreme. Do you have any thoughts on this 
issue? It was raised by the administration witness that there's 
some concerns about the makeup of the Commission.
    Mr. Edwards. I think the way the bill is structured now is 
actually pretty good. I think that the members of the 
Commission should be appointed by Congress. I think this Sunset 
Commission should be an agency of Congress so that--I mean, 
ultimately the recommendations are going to be forwarded to 
Congress, and I think that there can be greater prestige and 
clout--a word that was used earlier--if these are Members of 
Congress appointed by the Speaker and the majority leader. I 
think the recommendations will get more thorough analysis by 
Members of Congress.
    Mr. Weldon. Would each of you agree with that, or would you 
offer an olive branch to the White House?
    Mr. Schatz. Well, clearly the Justice Department's letter 
will have some impact on what happens at the subcommittee and 
committee levels, so I would really defer judgment until we see 
what they have to say and then do a separate analysis, because 
it wasn't necessarily what we were looking at specifically when 
we came before you this afternoon.
    Mr. Weldon. I see my time has expired.
    Mr. Davis, did you have any questions for this panel?
    Mr. Davis. Yes, Mr. Chairman. Thank you very much.
    Perhaps each one of the panelists could just respond. I 
mean, Texas is a big State, but it is small in comparison to 
the United States of America, and getting around to each one of 
the agencies obviously is quite time consuming and labor 
intense. Given the Texas experience, do you think that the 
amount of--or that we would get to the agencies in such a 
manner that we could effectively carry out the intent of the 
Commission?
    Mr. Berthoud. Congressman, I think that's a good question. 
I think Congresswoman Morella was asking questions similar to 
that, and I think part of the answer--Texas is not the United 
States. The United States is not Texas. Washington also has 
tools such as the General Accounting Office, such as the 
Congressional Budget Office that I think will be of great 
assistance to this Commission.
    Bill Eggers I would recommend to the committee has done 
terrific work on the Texas Commission, and the committee might 
want to--and I would be happy to provide information on how to 
get a hold of Mr. Eggers. I've seen him give a presentation on 
what was done in Texas. It's terrific. I just wanted to amend 
that to my comments and for the sake of the committee.
    Mr. Schatz. I would agree with my friend from NCU here 
because there are resources that do exist. We put together a 
list each year called ``Prime Cuts,'' which is more than 550 
recommendations that are gathered from CBO and OMB and years of 
congressional proposals. That is a laundry list of what could 
be done. There will be obvious disagreements about whether 
those things are appropriate or agreeable to the Congress, but 
the information does exist.
    I think what the Sunset Commission would be able to do is 
to consolidate a lot of what is out there in a way that would 
be more understandable to the taxpayers and perhaps more 
acceptable and maybe more objective in terms of what is being 
presented to Congress. It would be outside of the committee 
process, perhaps be less partisan, and hopefully result in 
something that could be used.
    The Grace Commission, for example, made over 2,400 
recommendations, $424 billion in savings over 3 years. That was 
about--was 160 senior business people and about 2,000 
volunteers over a year-and-a-half. So there are experiences 
over the years--the Hoover Commission, other Commissions have 
done this type of work in the past.
    Obviously, if you appoint a Sunset Commission and you're 
not getting your money's worth, it is time to reexamine whether 
it's working well.
    Mr. Edwards. I think, you know, the one role of the Sunset 
Commission would be to do something that the GAO and the 
departmental IGs and others don't currently do. There's 
currently a lot of focus, and the GAO does a tremendous job in 
looking at management reform and management issues and 
financial issues with the agencies, but they don't look at 
agency and program possible terminations and they don't look at 
how to move Federal activities into the private sector, and I 
think that would be an area where a Sunset Commission would 
have to get staff specialization to look at experiences of 
other countries and to look at how a lot of these agencies and 
programs could be moved to the private sector.
    Mr. Davis. Mr. Chairman, I don't have any further 
questions. I certainly just want to thank the witnesses for 
their testimony. I appreciate their response.
    Mr. Weldon. Well, I thank the ranking member for his input 
and all the Members who attended the hearing, and I certainly 
thank this panel for their very useful input. Again, I thank 
all of the witnesses.
    The record will be left open for a couple of weeks to allow 
Members to submit questions in writing and for additional 
comments and extension of remarks.
    With that, this hearing is now adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
